VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Inspection of 

                                                                    VA Regional Office 

                                                                     Chicago, Illinois 





                                                                               September 25, 2014
                                                                                 14-02357-270
                                 ACRONYMS


FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAH          Specially Adapted Housing
SHA          Special Home Adaptation
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center
VSR          Veterans Service Representative




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Inspection of VA
                    Regional Office Chicago, IL

Why We Did This Review                            staff also did not timely complete 15 of
                                                  30 benefit reduction cases due to addressing
The Veterans Benefits Administration              other higher workload priorities.
(VBA) has 56 VA Regional Offices
(VAROs) and a Veterans Service Center             What We Recommended
(VSC) in Cheyenne, WY, that process
disability claims and provide a range of          We recommended the Chicago VARO
services to veterans. We evaluated the            Director review the 581 temporary
Chicago VARO to determine how well it             100 percent disability evaluations remaining
accomplishes this mission.           Claims       from our inspection universe and take
processing that lacks compliance with VBA         appropriate action, as well as provide
procedures risks paying inaccurate financial      oversight to ensure staff follow VBA
benefits. The Office of Inspector General’s       guidance for establishing suspense diaries
Benefits Inspectors conducted onsite work at      and processing reminder notifications. The
the VARO in May 2014.                             Director should ensure staff receive
                                                  refresher training on proper processing of
What We Found                                     SMC and ancillary benefits and implement a
                                                  plan to ensure effectiveness of the training.
Overall, VARO staff did not accurately            The Director should develop and implement
process 35 (39 percent) of 89 disability          a plan to ensure completion of all SAOs.
claims reviewed. We sampled claims we             Finally, he should amend, implement, and
considered at increased risk of processing        monitor the Workload Management Plan to
errors, thus these results do not represent the   ensure staff take timely action on processing
overall accuracy of disability claims             proposed benefits reductions.
processing at this VARO.
                                                  Agency Comments
Specifically, 19 of 30 temporary 100 percent
disability evaluations we reviewed were           The Director of the Chicago VARO
inaccurate, primarily because management          concurred with all recommendations.
did not prioritize processing of claims           Management’s      planned     actions    are
requiring reexaminations.      VARO staff         responsive and we will follow up as required
demonstrated experience and knowledge in          on all actions.
correctly processing complex traumatic
brain injury claims. VARO staff incorrectly
processed 16 of 31 special monthly
compensation (SMC) and ancillary benefits
claims due to a lack of recent effective
training.
                                                             LINDA A. HALLIDAY
Management did not complete 5 of                         Assistant Inspector General
11 Systematic Analyses of Operations                      for Audits and Evaluations
(SAOs) due to inadequate oversight. VARO
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. 	 Disability Claims Processing ...............................................................................................2
 

           Finding 1              Chicago VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendations........................................................................................9
 

    II. 	Management Controls ........................................................................................................10


           Finding 2              VARO Lacked Adequate Oversight To Ensure Complete SAOs ..............10


                                  Recommendation .......................................................................................11


           Finding 3              VARO Lacked Oversight To Ensure Timely Action On Proposed 

                                  Benefit Reductions.....................................................................................12


                                  Recommendation .......................................................................................13


Appendix A                        VARO Profile and Scope of Inspection .....................................................14
 

Appendix B                        Inspection Summary ..................................................................................16


Appendix C                        VARO Director’s Comments.....................................................................17


Appendix D                        OIG Contact and Staff Acknowledgments ................................................20


Appendix E                        Report Distribution ....................................................................................21



                                                                          	
                                                               Inspection of the VARO Chicago, IL



                    INTRODUCTION
Objective	          The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and the performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other                  Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Chicago VARO Director’s comments on a draft
                       of this report.




VA Office of Inspector General                                                                  1
                                                                           Inspection of the VARO Chicago, IL



                      RESULTS AND RECOMMENDATIONS
                      I. Disability Claims Processing

Claims	               The OIG Benefits Inspection team focused on accuracy in processing
Processing            temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy              claims, and special monthly compensation (SMC) and ancillary benefits. We
                      evaluated these claims processing issues and their impact on veterans’
                      benefits.

Finding 1 	           Chicago VARO Could Improve Disability Claims Processing
                      Accuracy

                      The Chicago VARO did not consistently process temporary 100 percent
                      disability evaluations or entitlement to SMC and ancillary benefits. VARO
                      staff correctly processed all 28 TBI claims we reviewed. We attributed the
                      high accuracy rate to experienced staff and implementation of VBA’s
                      second-level review policy for TBI claims.

                      Overall, VARO staff incorrectly processed 35 of the total 89 disability
                      claims we sampled, resulting in 172 improper monthly payments to
                      11 veterans totaling approximately $187,000, at the time of our inspection in
                      May 2014. We sampled claims related only to specific conditions we
                      considered at increased risk of processing errors. As a result, the errors
                      identified do not represent the universe of disability claims or the overall
                      accuracy rate at this VARO. Table 1 reflects errors affecting, and those with
                      the potential to affect, veterans’ benefits processed at the Chicago VARO.

                Table 1. Chicago VARO Disability Claims Processing Accuracy
                                   For 3 High-Risk Claims Processing Areas
                                                                     Claims Inaccurately            Claims
                                         Claims Inaccurately
                            Claims                                   Processed: Potential         Inaccurately
    Type of Claim                        Processed: Affecting
                           Reviewed                                  To Affect Veterans’           Processed:
                                          Veterans’ Benefits
                                                                           Benefits                  Total
 Temporary 100 Percent
                                30                  03                          16                     19
 Disability Evaluations
 TBI Claims                     28                  00                          00                       0
 SMC and Ancillary
                                31                  08                          08                     16
 Benefits
  Total                         89                  11                          24                     35
 Source: VA OIG analysis of the Veterans Benefits Administration’s (VBA) temporary 100 percent disability
 evaluations paid at least 18 months, TBI disability claims completed in the first quarter fiscal year (FY) 2014,
 and SMC and ancillary benefits claims completed in calendar year 2013



VA Office of Inspector General                                                                                      2
                                                                 Inspection of the VARO Chicago, IL


Temporary           VARO staff incorrectly processed 19 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability          disability evaluation for a veteran’s service-connected disability following
Evaluations
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduced compensation payments, Rating Veterans Service
                    Representatives (RVSRs) must inform the beneficiary of the proposed
                    reduction in benefits. In order to provide beneficiaries due process, VBA
                    allows 60 days for the veteran to submit additional evidence to show that
                    compensation payments should continue at their present level. On the 65th
                    day following due process notification, action is required to reduce the
                    evaluation and thereby minimize overpayments.

                    Effective management of these temporary 100 percent disability ratings can
                    reduce VBA’s risks of paying inaccurate financial benefits. Available
                    medical evidence showed 3 of the 19 processing errors affected benefits and
                    resulted in 55 improper monthly recurring payments to 3 veterans totaling
                    approximately $61,800. These improper monthly benefits payments ranged
                    from May 2011 to April 2014. Details on the errors affecting benefits
                    follow.

                    	 An RVSR granted a temporary 100 percent disability evaluation for a
                       veteran’s prostate cancer on June 10, 2010, and requested a medical
                       reexamination in October 2012. However, VARO staff had not
                       scheduled the reexamination at the time of our review in May 2014.
                       Medical evidence from October 2012 showed the veteran’s disability
                       improved; therefore, it warranted a reduced evaluation. As a result, VA
                       overpaid the veteran approximately $35,500 over a period of 13 months.
                       Monthly benefits payments continue at the 100 percent disability rate if
                       no corrective action is taken.
                    	 In another case, an RVSR proposed reducing a veteran’s temporary
                       100 percent disability evaluation for prostate cancer to 40 percent
                       disabling. Staff sent a notification letter to the veteran on April 3, 2013,
                       advising him of the proposed reduction. The due process period expired
                       on June 7, 2013. At the time of our review in May 2014, VARO staff


VA Office of Inspector General                                                                    3
                                                                 Inspection of the VARO Chicago, IL


                        had still not taken action on the proposed reduction. As a result, VA
                        overpaid the veteran approximately $14,700 over a period of 7 months.
                        Monthly benefit payments continue at the 100 percent disability rate if no
                        corrective action is taken.
                    	 An RVSR did not address a veteran’s entitlement to an additional level of
                       compensation due to multiple disabilities, as required. As a result, VA
                       underpaid the veteran approximately $11,600 over a period of 35 months.

                    The remaining 16 of the total 19 errors had the potential to affect veterans’
                    benefits. Following are details on the 16 errors:

                    	 In 13 cases, RVSRs established the need for future reexaminations of the
                       veterans’ temporary 100 percent disability evaluations. The electronic
                       system generated reminder notifications to alert staff to schedule the
                       medical reexaminations; however, staff had not yet scheduled the
                       reexaminations. We could not determine if these temporary 100 percent
                       disability evaluations would have continued because the veterans’ claims
                       folders did not contain the medical evidence needed to re-evaluate each
                       case. As a result, there is increased risk that VA overpaid these veterans.
                    	 RVSRs established the need for future reexaminations of the veterans’
                       temporary 100 percent disabilities in the remaining three cases.
                       However, at the time of our May 2014 review, staff had not scheduled
                       the reexaminations and no electronic system controls were in place to
                       ensure staff would schedule the reexaminations as required. As a result,
                       there is increased risk that VA was continuing to overpay these veterans
                       without appropriate medical support.

                    Generally, errors occurred because VSC management did not prioritize
                    processing temporary 100 percent disability claims. Their Workload
                    Management Plan did not list these cases as one of the workload priorities.
                    Management stated and VSC staff confirmed they placed emphasis on
                    processing other workloads that VBA tracks and measures for timeliness. As
                    a result, veterans may receive benefits payments in excess of their benefits
                    entitlements. We provided VARO management with 581 claims remaining
                    from our universe of 611 for its review to determine if action is required.

                    VARO management concurred with one error we identified and neither
                    concurred nor nonconcurred with 16 errors that involved delays in benefit
                    reductions and reexamination scheduling. In response, management stated,
                    “Workload priorities and the timeliness of processing is an issue that should
                    be discussed between leadership at the headquarters level for both OIG and
                    VBA.”

                    We disagree. It is a VBA management responsibility to address this issue,
                    which entails millions of dollars in improper payments. Where VBA lacks
                    sufficient staff to properly address its management responsibilities, it should

VA Office of Inspector General                                                                    4
                                                                Inspection of the VARO Chicago, IL


                    make its case for an increase in full-time equivalents through the normal
                    budget process. VARO management did not concur with the two remaining
                    errors that resulted when staff did not address reminder notifications to
                    schedule reexaminations. However, management confirmed it would take
                    corrective actions on both cases.
Follow-Up to        In our previous report, Inspection of the VA Regional Office, Chicago,
Prior VA OIG        Illinois (Report No. 11-00521-183, June 2, 2011), VARO staff incorrectly
Inspection
                    processed 13 of 30 temporary 100 percent disability evaluations we
                    reviewed. The most frequent processing errors occurred when staff did not
                    follow VBA policy on reminder notifications to schedule reexaminations.
                    The OIG recommended the VARO Director establish mechanisms to ensure
                    staff control claims requiring medical reexaminations within 60 days of final
                    processing actions, review all pending reminder notifications to determine if
                    medical reexaminations are required and take appropriate action, and
                    implement oversight to ensure staff follow VBA guidance and the local
                    Workload Management Plan for reviewing reminder notifications. The OIG
                    closed these recommendations after VARO management stated it would
                    follow the national plan to review temporary 100 percent disability
                    evaluation cases and implement compliance reviews of reminder notification
                    management.

                    During our May 2014 inspection, we identified cases where VSC staff did
                    not input suspense diaries for future VA medical reexaminations in the
                    electronic system or follow VBA guidance on managing reminder
                    notifications. Therefore, we determined the VSC’s actions in response to our
                    previous recommendations have not been effective.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our report, Systemic Issues Reported
                    During Inspections at VA Regional Offices (Report No. 11-00510-167,
                    May 18, 2011), VBA agreed to develop and implement a strategy for
                    ensuring the accuracy of TBI claims decisions. In May 2011, VBA provided
                    guidance to VARO Directors to implement a policy requiring a second
                    signature on each TBI case an RVSR evaluates until the RVSR demonstrates
                    90 percent accuracy in TBI claims processing. The policy indicates second-
                    signature reviewers come from the same pool of staff as those used to
                    conduct local station quality reviews.


VA Office of Inspector General                                                                   5
                                                                  Inspection of the VARO Chicago, IL


                    During this inspection, VARO staff correctly processed all 28 TBI claims we
                    reviewed. We attributed the high accuracy rate to experienced staff,
                    effective communication, implementation of the second-signature policy, and
                    the practice of requesting specific information at the beginning of the VA
                    medical examination process. Staff we interviewed stated they processed
                    TBI claims daily and had at least 3 years of experience. Staff also said they
                    requested specific TBI information at the beginning of the examination
                    process so VA examiners were aware of the medical information required for
                    TBI evaluations. Management indicated communication between RVSRs
                    and quality review staff contributed to their success in processing TBI
                    claims. We determined the VARO staff followed VBA policy when
                    processing these claims. Therefore, we made no recommendation for
                    improvement in this area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Chicago,
Prior VA OIG        Illinois (Report No. 11-00521-183, June 2, 2011), we determined processing
Inspection          errors occurred because staff misinterpreted VBA policy and used
                    insufficient VA medical examinations for rating decisions. VARO staff
                    conducted TBI training during our inspection in response to errors we
                    identified. We recommended the VARO Director develop and implement
                    plans to evaluate the effectiveness of the March 2011 training and improve
                    accuracy and oversight of TBI claims processing. The OIG closed these
                    recommendations after the VARO provided information regarding feedback
                    from the training and documentation of second-signature reviews of TBI
                    claims. We did not identify any errors during our May 2014 inspection. As
                    such, we determined the VARO’s corrective actions in response to our
                    previous recommendations appeared to be effective.

Special Monthly     As the concept of rating disabilities evolved, VBA realized that for certain
Compensation        types of disabilities, the basic rate of compensation was not sufficient for the
and Ancillary
Benefits
                    level of disability present. Therefore, VBA established SMC to recognize
                    the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb, or
                    the need to rely on others for daily life activities, like bathing or eating.
                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist.

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling

VA Office of Inspector General                                                                     6
                                                                 Inspection of the VARO Chicago, IL


                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under Title 38, United States Code,
                       Chapter 35
                    	 Specially Adapted Housing (SAH)
                    	 Special Home Adaptation (SHA)
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We focused our review on
                    whether VARO staff accurately processed entitlement to SMC and ancillary
                    benefits associated with anatomical loss, loss of use of two or more
                    extremities, or bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 16 of 31 claims involving SMC and
                    ancillary benefits—8 affected veterans’ benefits and resulted in
                    overpayments to veterans totaling approximately $109,000 and
                    underpayments totaling approximately $16,000. These errors represented
                    117 improper monthly recurring payments from August 1999 until
                    April 2014. Details on the errors affecting benefits follow:

                    	 An RVSR incorrectly increased the evaluation of a veteran’s bilateral eye
                       condition and granted entitlement to Dependents’ Educational
                       Assistance. As a result, the veteran was overpaid approximately
                       $101,000 over a period of 40 months.
                    	 In another case, an RVSR assigned a lower level of SMC than warranted
                       for a veteran. As a result, VA underpaid the veteran approximately
                       $11,600 over a period of 26 months.
                    	 VARO staff assigned a higher level of SMC than warranted and
                       incorrectly processed payments to a veteran. As a result, VA overpaid
                       the veteran approximately $8,000 over a period of 41 months.
                    	 A veteran warranted a higher level of SMC than assigned by the RVSR.
                       As a result, VA underpaid the veteran approximately $2,400 over a
                       period of 6 months.
                    	 In two cases, RVSRs assigned veterans incorrect effective dates for
                       increased SMC. As a result, VA underpaid one veteran approximately
                       $1,000 for a period of 1 month and another veteran approximately $690
                       for a period of 1 month.


VA Office of Inspector General                                                                    7
                                                                Inspection of the VARO Chicago, IL


                    	 An RVSR assigned an earlier effective date than was warranted for
                       increased SMC. As a result, VA overpaid the veteran approximately
                       $410 for a period of 1 month.
                    	 In the last case, an RVSR did not grant a higher level of SMC for a
                       veteran when warranted. As a result, VA underpaid the veteran
                       approximately $270 for a period of 1 month.

                    The remaining eight errors had the potential to affect veterans’ benefits.
                    Summaries of these errors follow.

                    	 Five errors involved RVSRs that failed to grant, or improperly granted,
                       ancillary benefits.
                        o	 In two cases, staff failed to grant entitlement to automobile and
                           adaptive equipment, a benefit worth up to $19,817. In one of these
                           cases, an RVSR also failed to grant entitlement to SHA, a benefit
                           worth up to $13,511.
                        o	 Staff incorrectly granted entitlement to both SAH and SHA in two
                           other cases. VA regulations preclude entitlement to SAH when the
                           veteran is also entitled to SHA.
                        o	 In one case, an RVSR granted entitlement to SAH, a benefit worth up
                           to $67,555, when the veteran did not meet the eligibility
                           requirements. The RVSR also failed to grant SHA although the
                           veteran was eligible.
                    	 Two errors involved RVSRs that incorrectly entered, or failed to enter,
                       hospital codes for veterans’ SMC into the electronic system. Generally,
                       VSC staff must reduce veterans’ SMC payments when they are
                       hospitalized at Government expense. Staff use hospital codes to
                       determine the correct amount to pay hospitalized veterans. In these two
                       cases, the improper hospital codes could have resulted in erroneous
                       adjustments of the veterans’ payments upon hospitalization.
                    	 In the final case, an RVSR denied a veteran entitlement to SMC at a
                       higher rate without informing the veteran what was necessary to grant the
                       benefit. Without the veteran receiving required claims assistance, the
                       RVSR improperly denied SMC, and additional evidence the veteran may
                       have been able to provide could have led to a different decision.

                    Errors related to SMC and ancillary benefits were generally due to both a
                    lack of recent and effective training. VARO staff provided records revealing
                    they last received training for SMC and ancillary benefits in 2011 and 2012.
                    Furthermore, VSC staff we interviewed indicated the training for SMC and
                    ancillary benefits was basic and brief, lasting just a few hours. Staff stated
                    that future training on the topics of SMC and ancillary benefits should
                    dedicate more time to this complex subject.


VA Office of Inspector General                                                                   8
                                                                Inspection of the VARO Chicago, IL


                    The VARO concurred with 14 of the errors we identified and did not concur
                    with two errors. Although VARO management did not concur with the two
                    errors, it agreed processing of these two cases was not compliant with policy
                    and VARO staff would take corrective action.

                    Recommendations

                    1.	 We recommended the Chicago VA Regional Office Director conduct a
                        review of the 581 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.

                    2.	 We recommended the Chicago VA Regional Office Director provide
                        oversight to ensure staff follow Veterans Benefits Administration
                        guidance for establishing suspense diaries and processing reminder
                        notifications.

                    3.	 We recommended the Chicago VA Regional Office Director ensure staff
                        receive refresher training on the proper processing of special monthly
                        compensation and ancillary benefits and implement a plan to ensure the
                        effectiveness of the training.

Management          The VARO Director concurred with our recommendations and indicated
Comments            staff completed reviews of 554 of the 581 temporary 100 percent disability
                    evaluations identified. The Director expects staff to complete reviews of the
                    remaining cases by October 15, 2014.

                    Veterans Service Representatives (VSRs) will receive training regarding the
                    proper procedures for suspense diaries and processing reminder notifications.
                    VSRs will review the 100 oldest cases each week and take necessary actions.
                    Staff will provide a weekly report to the VSC Manager for review to ensure
                    cases are processed as reported. Staff will also receive training on Special
                    Monthly Compensation and Ancillary Benefits. The Quality Review Team
                    will conduct a special review of these cases during November 2014 and
                    provide a follow-up training plan on its findings, as well as on-the-spot
                    training as the review progresses.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                                   9
                                                                Inspection of the VARO Chicago, IL


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and propose corrective actions.
                    VARO management must prepare annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

Finding 2           VARO Lacked Adequate Oversight To Ensure Complete SAOs

                    Six SAOs were complete and submitted timely.           However, VARO
                    management did not provide the remaining 5 of the 11 SAOs for our review
                    due to inadequate oversight over the SAO process. As a result of not
                    completing all required SAOs, management lacked sufficient information to
                    adequately identify existing and potential problems needing corrective
                    actions to improve VSC operations.

                    Management did not provide four of the five SAOs for our review because
                    the Director’s staff had not finalized them. We were unable to review the
                    fifth SAO because the manager assigned to this SAO did not complete it
                    prior to retiring, and management did not realize this until we requested the
                    SAO for review. We notified the VARO of our inspection and requested the
                    SAOs on April 21, 2014. We arrived at the VARO on May 19, 2014.
                    However, management still did not provide us with the five SAOs needed for
                    review. A lack of management oversight of the SAO process resulted in the
                    remaining five required SAOs being incomplete.

                    For example, we were unable to review the Internal Controls SAO. As
                    discussed in our review of temporary 100 percent disability evaluations, we
                    identified instances where VARO staff did not take timely actions to
                    minimize overpayments. If the Chicago VARO had completed the Internal
                    Controls SAO, it could have identified this problem and developed
                    recommendations to address this issue before we did as part of our review.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Chicago,
Prior VA OIG        Illinois (Report No. 11-00521-183, June 2, 2011), we found that 7 of the
Inspection
                    12 mandated SAOs were not completed timely, were missing required
                    elements, or were not done at all. VARO management did not provide
                    adequate oversight to ensure VSC staff completed the SAOs according to
                    VBA policy. As a result, VARO management may not have adequately

VA Office of Inspector General                                                                 10
                                                               Inspection of the VARO Chicago, IL


                    identified existing and potential problems for corrective actions to improve
                    VSC operations. We recommended the Chicago VARO Director develop
                    and implement a plan to ensure staff complete SAOs timely and address all
                    required elements.         The OIG closed this recommendation on
                    February 27, 2012, after the VARO submitted SAO standard operating
                    procedures to support its implementation of the recommendation.

                    During our May 2014 inspection, staff completed and timely submitted 6 of
                    the 11 required SAOs. VARO management did not complete the remaining
                    five SAOs because it did not provide adequate oversight. In our previous
                    inspection, we found SAOs that were not completed and made
                    recommendations for improvement. Because of similar findings during our
                    previous and current inspections, we determined the VARO’s actions in
                    response to our previous recommendations have not been effective.

                    Recommendation
                    4.	 We recommended the Chicago VA Regional Office Director develop and
                        implement a plan to ensure completion of all Systematic Analyses of
                        Operations.

Management          The Chicago VARO will continue to enforce its existing schedule and plan
Comments            for Systematic Analyses of Operations. While one of the five SAOs was not
                    completed timely due to personnel retirement, the other four were drafted
                    and submitted. Management was actively engaged in the VARO’s
                    established SAO process, which includes edits and changes between the
                    division and the Director’s Office. The VARO did not provide draft versions
                    to the OIG team while it was onsite, as SAOs are considered complete only
                    after the Director’s Office has approved them.

OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We will follow up on management’s actions during future inspections.

Benefits            VBA policy provides for compensation to veterans for conditions they
Reductions          incurred or aggravated during military service. The amount of monthly
                    compensation to which a veteran is entitled may change because his or her
                    service-connected disability may improve. Improper payments associated
                    with benefits reductions generally occur when beneficiaries receive
                    payments to which they are not entitled. Such instances are attributable to
                    VAROs not taking the actions required to ensure correct payments for the
                    veterans’ current levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in a reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide the beneficiary due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments

VA Office of Inspector General                                                                11
                                                                 Inspection of the VARO Chicago, IL


                    should continue at their present level. If the veteran does not provide
                    additional evidence within that period, an RVSR must make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefits reductions. The new policy no longer
                    includes the requirement for VARO staff to take “immediate action” to
                    process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits.

Finding 3 	         VARO Lacked Oversight To Ensure Timely Action On Proposed
                    Benefit Reductions

                    VARO staff delayed processing 15 of 30 cases involving proposed benefits
                    reductions due to a lack of priority on timely managing this workload.
                    Processing delays resulted in overpayments totaling approximately
                    $152,000, representing 113 improper monthly recurring payments to
                    15 veterans from July 2012 to March 2014.

                    In the case with the most significant overpayment, VSC staff sent a letter to
                    the veteran on August 23, 2012, proposing reducing the evaluation for
                    prostate cancer. The due process period expired on October 27, 2012,
                    without the veteran providing additional evidence to support the claim.
                    However, staff did not reduce the benefits until November 25, 2013. As a
                    result, VA overpaid the veteran approximately $39,000 over a period of
                    14 months.

                    An average of 8 months elapsed from the time staff should have taken action
                    to reduce the evaluations for these 15 cases. In the case with the most
                    significant delay, VSC staff sent a letter to the veteran on February 22, 2012,
                    proposing reducing the evaluation for his prostate cancer from 100 to
                    60 percent disabling. The due process period expired on April 27, 2012,
                    without the veteran providing additional information to support the claim.
                    However, staff did not reduce the evaluation until November 14, 2013.
                    Additionally, the proposed evaluation of 60 percent disabling was incorrect
                    as medical evidence warranted a 40 percent evaluation. Because of the delay
                    and the incorrect evaluation, VA overpaid the veteran approximately
                    $28,000 over a period of 19 months.

                    Generally, these delays occurred because VARO management did not view
                    this workload as a priority. Because of national changes to workload
                    management, VSC leadership did not prioritize processing benefits
                    reductions and concentrated instead on national priorities including
                    processing rating claims pending over 2 years. Additionally, we noted the

VA Office of Inspector General                                                                  12
                                                                 Inspection of the VARO Chicago, IL


                    VSC’s Workload Management Plan did not reflect current guidance to
                    process benefit reductions. Both management and staff confirmed there was
                    no emphasis on timely following through with proposed rating reductions.

                    VARO management concurred with 9 of the total 15 errors we identified.
                    Although we showed VARO management and staff VBA criteria (Manual
                    21-1 Manual Rewrite, PartI.2.B.7.a) requiring action on the 65th day
                    following due process notification, they neither concurred nor nonconcurred
                    with the remaining 6 benefits reductions involving processing delays. In
                    these cases, VARO managers noted, "Workload priorities and the timeliness
                    of processing is an issue that should be discussed between leadership at the
                    headquarters level for both OIG and VBA."

                    We disagree. It is a VBA management responsibility to address this issue,
                    which entails millions of dollars in improper payments. Where VBA lacks
                    sufficient staff to properly address its management responsibilities, it should
                    make its case for an increase in full-time equivalents through the normal
                    budget process. Without appropriate priority for this type of work, delays in
                    processing reductions result in unsound financial stewardship of veterans’
                    monetary benefits and fail to minimize overpayments.

                    Recommendation
                    5.	 We recommended the Chicago VA Regional Office Director amend,
                        implement, and monitor the local Workload Management Plan to ensure
                        staff take timely action on claims requiring rating decisions for reduction
                        of benefits.

Management          The VARO Director concurred with our recommendation and implemented a
Comments            procedure for VSRs to add electronic controls to any rating-related or non-
                    rating-related work product. These electronic controls enable employees and
                    supervisors to identify work items that need rating decisions for possible
                    benefits reductions.

OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We will follow up on management’s actions during future inspections.




VA Office of Inspector General                                                                  13
                                                                Inspection of the VARO Chicago, IL


Appendix A          VARO Profile and Scope of Inspection

Organization        The Chicago VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; public affairs; and outreach to homeless, elderly, minority, and
                    women veterans.

Resources           As of April 2014, the Chicago VARO reported a staffing level of
                    186.8 full-time employees. Of this total, the VSC had 154.9 employees
                    assigned.

Workload            As of April 2014, VBA reported the Chicago VARO had 8,938 pending
                    compensation claims. On average, claims were pending 144.7 days to
                    29.7 days more than the national target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process disability
Methodology         claims and provide a range of service to veterans. In May 2014, we
                    evaluated the Chicago VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 30 (5 percent) of 611 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented instances where VBA staff had granted temporary 100 percent
                    disability evaluations for at least 18 months as of March 24, 2014. This is
                    generally the longest period a temporary 100 percent disability evaluation
                    may be assigned without review, according to VBA policy. We provided
                    VARO management with 581 claims remaining from our universe of 611 for
                    its review. We reviewed all 28 available disability claims related to TBI
                    completed by the VARO in the first quarter of FY 2014 (October 1, 2013
                    through December 31, 2013). We also examined all 31 veterans’ claims
                    available involving entitlement to SMC and ancillary benefits that VARO
                    staff completed from January 1, 2013, through December 31, 2013.

                    Prior to VBA consolidating Fiduciary Activities nationally, each VARO was
                    required to complete 12 SAOs. However, since the Fiduciary Activities
                    consolidation, the VAROs are only required to complete 11 SAOs.
                    Therefore, we reviewed all available SAOs related to VARO operations.
                    Additionally, we looked at 30 (14 percent) of 221 completed claims


VA Office of Inspector General                                                                 14
                                                                 Inspection of the VARO Chicago, IL


                    involving proposed benefits reductions from the first quarter of
                    FY 2014 (October 1, 2013, through December 31, 2013).

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the process improvements it can
                    make to ensure enhanced stewardship of financial benefits. We do not
                    provide this information to require the VARO to adjust specific veterans’
                    benefits. Processing any adjustments per this review is clearly a VBA
                    program management decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any were missing from key fields, included calculation
                    errors, or were outside the time frame requested. We assessed whether the
                    data contained obvious duplication of records, alphabetic or numeric
                    characters in incorrect fields, or illogical relationships among data elements.
                    Further, we compared veterans’ names, file numbers, Social Security
                    numbers, dates of claim, and decision dates as provided in the data received
                    with information contained in the 119 claims folders we reviewed related to
                    temporary 100 percent disability evaluations, TBI claims, SMC and ancillary
                    benefits, and completed claims involving proposed benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    This report references VBA’s Systematic Technical Accuracy Review data.
                    As reported by VBA’s Systematic Technical Accuracy Review program as
                    of April 2014, the overall claims-based accuracy of the VARO’s
                    compensation rating-related decisions was 89.8 percent. We did not test the
                    reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                  15
                                                                                Inspection of the VARO Chicago, IL


Appendix B               Inspection Summary

                         Table 2 reflects the operational activities inspected, applicable criteria, and
                         whether or not we had reasonable assurance of VARO compliance.

                               Table 2. Chicago VARO Inspection Summary
      Operational                                                                                Reasonable
       Activities                                      Criteria                                  Assurance of
       Inspected                                                                                 Compliance
        Disability
         Claims
        Processing
    Temporary               Determine whether VARO staff properly reviewed temporary
    100 Percent             100 percent disability evaluations. (38 CFR 3.103(b)) (38
    Disability              CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart                  No
    Evaluations             ii, Chapter 2, Section J) (M21-1MR Part III, Subpart iv,
                            Chapter 3, Section C.17.e)
    Traumatic Brain         Determine whether VARO staff properly processed claims for
    Injury Claims           service connection for all disabilities related to in-service TBI.       Yes
                            (FL 08-34 and 08-36) (Training Letter 09-01)
    Special Monthly         Determine whether VARO staff properly processed SMC and
    Compensation and        correctly granted entitlement to ancillary benefits. (38 CFR
                                                                                                     No
    Ancillary Benefits      3.350, 3.352, 3.807, 3.808, 3.809, 3.809a, 4.63, and 4.64)
                            (M21-1MR IV.ii.2.H and I)
      Management
       Controls
    Systematic              Determine whether VARO staff properly performed formal
    Analysis of             analyses of their operations through completion of SAOs.                 No
    Operations              (M21-4, Chapter 5)
    Proposed Benefits       Determine whether VARO staff timely and accurately
    Reductions              processed disability evaluation reductions or terminations. (38
                            CFR 3.103(b)(2), 38 CFR 3.105(e), 38 CFR 3.501, M21­
                                                                                                     No
                            1MR.IV.ii.3.A.3.e, M21-1MR.I.2.B.7.a, M21-1MR.I.2.C,
                            M21-1MR.I.ii.2.f, M21-4, Chapter 2.05(f)(4), (Compensation
                            & Pension Service Bulletin, October 2010)
   Source: VA OIG
   CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                                  16
                                                                            Inspection of the VARO Chicago, IL


Appendix C             VARO Director’s Comments



              Department of                                         Memorandum
              Veterans Affairs
      Date:       September 8, 2014
      From:       Director, VA Regional Office Chicago, Illinois

      Subj:       Inspection of the VA Regional Office, Chicago, Illinois

        To:       Assistant Inspector General for Audits and Evaluations (52)


              1. 	 The Chicago VARO’s comments are attached on the OIG Draft Report: Inspection of
                   the VA Regional Office, Chicago, Illinois.
              2. 	 Please refer questions to Ms. Tanya Fisher, Assistant Veterans Service Center
                   Manager, at (312) 980-4401.


                  (original signed by:)
                  Suzanne DeNeau-Galley

                  Acting Director





                  Attachment




VA Office of Inspector General                                                                             17
                                                                     Inspection of the VARO Chicago, IL


                                                                                             Attachment

Chicago (328)

                                                                                     September 8, 2014

OIG Recommendations:

Recommendation 1: We recommended the Chicago VA Regional Office Director conduct a review of the
581 temporary 100 percent disability evaluations remaining from our inspection universe and take
appropriate action.

     Chicago RO Response: Concur

     The Chicago Regional Office has reviewed 554 of the 581 temporary 100 percent disability
     evaluations identified. The RO is in the process of reviewing the remaining 27 evaluations. We
     expect to complete those reviews by October 15, 2014. We will continue to get a new listing of
     temporary 100 percent cases each month, and will work these as received.

     Target Completion Date: October 15, 2014

Recommendation 2: We recommended the Chicago VA Regional Office Director provide oversight to
ensure that staff follow Veterans Benefits Administration guidance for establishing suspense diaries and
processing reminder notifications.

     Chicago RO Response: Concur

     The Chicago Regional Office will conduct training on proper procedures for suspense diaries and
     processing reminder notifications. Chicago VSRs will review the 100 oldest 810s each week, and
     take the necessary action (including establishing an EP 310, if appropriate). A report on the number
     of 810s worked each week will be provided to the VSC Manager’s office every Friday by the Express
     Lane Coaches. The AVSCM(s) will also review the completed/cancelled message work items in
     VOR each week, to verify that the 810s are being processed as reported.

     Target Completion Date: November 1, 2014

Recommendation 3: We recommended the Chicago VA Regional Office Director ensure that staff
receives refresher training on the proper processing of special monthly compensation and ancillary
benefits and implement a plan to ensure the effectiveness of the training.

     Chicago RO Response: Concur

     Training sessions for Special Monthly Compensation and Ancillary Benefits are scheduled for
     October 1, 2014, October 2, 2014 and October 7, 2014. The Quality Review Team will conduct a
     special review of these cases during November 2014 and provide a follow up training plan on their
     findings, as well as provide on-the-spot training as the review progresses.

     Target Completion Date: December 15, 2014

Recommendation 4: We recommend the Chicago VA Regional Office Director develop and implement a
plan to ensure completion of all Systematic Analyses of Operations.

     Chicago RO Response: Concur




VA Office of Inspector General                                                                        18
                                                                    Inspection of the VARO Chicago, IL


    The Chicago VA Regional Office will continue to enforce its existing schedule and plan for
    Systematic Analyses of Operations. While one of the five was not completed timely due to
    personnel retirement, the other four were drafted and submitted, and were actively engaged in the
    RO’s established SAO process, which includes edits and changes between the division and the
    Director’s Office. The RO did not provide draft versions to the OIG while on site, as SAOs are
    considered complete only when they have been approved by the Office of the Director. We
    recommend closure of this recommendation, as the Chicago VARO received positive feedback on
    the SAOs reviewed by the OIG, which illustrates that the current process provides a quality product.

Recommendation 5: We recommended the Chicago VA Regional Office Director amend, implement,
and monitor the local Workload Management Plan to ensure that staff take timely action on claims
requiring rating decisions for reduction of benefits.

    Chicago RO Response: Concur

    In February 2014, the Veterans Service Center implemented a procedure for VSRs to add “RO
    Special Issue 1” to any rating-related EP 600, and “RO Special Issue 2” to any non-rating-related EP
    600. This special issue designation enables employees and supervisors to quickly identify EP 600s
    which need rating decisions for possible reductions via the daily Tableau report. Cases established
    prior to the February date will have the appropriate flashes added by September 30, 2014.

    Target Completion Date: September 30, 2014




VA Office of Inspector General                                                                       19
                                                       Inspection of the VARO Chicago, IL


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Daphne Brantley
                                         Brett Byrd
                                         Scott Harris
                                         Jeffrey Myers
                                         David Piña
                                         Rachel Stroup
                                         Nelvy Viguera Butler
                                         Diane Wilson




VA Office of Inspector General                                                        20
                                                               Inspection of the VARO Chicago, IL


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office Chicago Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Richard J. Durbin, Mark Kirk
                    U.S. House of Representatives: 	Cheri Bustos, Danny K. Davis,
                     Rodney Davis, Tammy Duckworth, William Enyart, Bill Foster,
                     Luis Gutierrez, Randy Hultgren, Robin Kelly, Adam Kinzinger,
                     Daniel Lipinski, Mike Quigley, Peter J. Roskam, Bobby L. Rush,
                     Jan Schakowsky, Brad Schneider, Aaron Schock, John Shimkus




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                21
